BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, hereby certify that 1 copy of the
foregoing Reply in Support of Motion for Leave to
Intervene as Petitioner in 20-542, Republican Party of
Pennsylvania v. Kathy Boockvar, Secretary of
Pennsylvania, et al. and 20-57 4, Joseph B. Scarnati,
III, et al. v. Pennsylvania Democratic Party, et al. were
sent via Next Day Service to the U.S. Supreme Court,
and e-mail to the following parties listed below, this
6th day of November, 2020:
John Matthew Gore
Jones Day
51 Louisiana Avenue, N.W.
Washington, DC 20001
(202) 879-3939
jmgore@jonesday.com

Counsel for Petitioner
Republican Party of Pennsylvania
Jason Brett Torchinsky
Holtzman Vogel J osefiak Torchinsky PLLC
15405 John Marshall Hwy
Haymarket, VA 20169
(540) 341-8808
J torchinsky@hvjt.law

Counsel for Petitioners
Joseph B. Scarnati, III, et al.

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

8790 Governor's Hill Drive

Franklin Square

(800) 890.5001

Suite 102

1300 I Street, NW, Suite 400E

www.beckergallagher.com

Cincinnati, Ohio 45249

Washington, DC 20005

Joseph Matthias Cosgrove
Selingo Guagliardo LLC
345 Market Street
Kingston, PA 18704-0000
(570) 287-2400
jmcosgro@msn.com

Counsel for Respondent
Luzerne County Board of Elections
John Bartley DeLone
Attorney General's Office
Pennsylvania Office of Attorney General
Appellate Litigation Section
15th Floor, Strawberry Square
Harrisburg, PA 17120
(717) 783-3226
jdelone@attorneygeneral.gov

Counsel for Respondent Kathy Boockvar
Donald B. Verrilli Jr.
Munger, Tolles & Olson LLP
601 Massachusetts Avenue, NW
Suite 500E
Washington, DC 20001-5369
(202) 220-1101
donald.verrilli@mto.com

Counsel for Respondent
Pennsylvania Democratic Party

Jay Alan Sekulow
Counsel of Record
Stuart J. Roth
Jordan Sekulow
Constitutional Litigation and Advocacy Group, P.C.
1701 Pennsylvania Ave. NW, Suite 200
Washington, D.C. 20006
(202) 546-8890
jsekulow@claglaw.com
Patrick Strawbridge
Consovoy McCarthy PLLC
Ten Post Office Square
8th Floor South PMB #706
Boston, MA 02109
(617) 227-0548
William S. Consovoy
Thomas R. McCarthy
Tyler R. Green
Cameron T. Norris
Consovoy McCarthy PLLC
1600 Wilson Blvd., Ste. 700
Arlington, VA 22209
(703) 243-9423

Counsel for Movant

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on November 6, 2020.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

/t~ hvi-?? r c}a ot>

c./v-h l;J, 5ujju

Notary Public
[seal]

JOHN D. GALLAGH~~
Notary Public, State of OhiO

My commission Expire,
February 14, 2023

